Audit Report 99-14 - Police Hiring and Redeployment Grants (4/99)
USDOJ/OIG Special Report
POLICE HIRING AND REDEPLOYMENT GRANTS
Summary of Audit Findings and Recommendations
October 1996 - September 1998
Report Number 99-14
(April, 1999)
TABLE OF CONTENTS
Executive Summary
A. PURPOSE
B. OVERVIEW OF THE COPS GRANT
PROGRAM
C. THE CONCEPT OF COMMUNITY
POLICING
D. OFFICER HIRING AND
REDEPLOYMENT INITIATIVES
E. OIG INVOLVEMENT
F. GRANT CRITERIA
G. RESULTS OF OUR GRANT AUDITS
H. AUDIT FOLLOW-UP
I. CONCLUSION ON GRANT AUDIT
RESULTS
APPENDIX I - COPS REPORT
FINDINGS AND RECOMMENDATIONS BY LOCATION
Large
Grantees
Medium Grantees
Medium Grantees
Continued
Small Grantees
Small Grantees
Continued/Indian Tribes
APPENDIX II - OIG AUDIT REPORT
DOLLAR FINDINGS
APPENDIX III -
SCOPE AND METHODOLOGY
APPENDIX IV -
REFERENCES
APPENDIX V -
COPS/OJP RESPONSE
APPENDIX VI - OIG
ANALYSIS OF COPS/OJP COMMENTS
#####